CERTIFICATE OF COMPLIANCE
Case No. 19-648
Caption: CACI Premier Technology, Inc. v.
Suhail Najim Abdullah Al Shimari, et al.
As required by Supreme Court Rule 33. l(h),
I certify that the document contains 8,756 words,
excluding the parts of the document that are
exempted by Supreme Court Rule 33.l(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on December 19, 2019.

{dmr11L/

ll1f/Jlk:

Anne Lamb
Record Press, Inc.

Sworn to before me on
December 19, 2019
ALESSANDRA KANE
Notary Public, State of New York
No. 0IKA6340521
ualified in Richmond Count
0

